office of inspector gener al


semiannual report

    to congress

    APRIL 1, 2011 to SEPTEMBER 30, 2011
                                      FOREWORD 

On September 30, 2011 the Electronic Records Archive (ERA/developmental contract between
the National Archives and Records Administration (NARA) and Lockheed Martin Corporation
came to a conclusion. When the contract was first entered into back in September 2005,
Archivist Allen Weinstein announced "failure was not an option" and through competition we
had obtained the "very best design and greatest expertise the private sector has to offer." As the
door swings shut on ERA development, key requirements that were to have comprised the base
system at full operating capability have not been met.

As we transition from the developmental phase to an operations and maintenance phase, this
office will continue to monitor and report upon the status ofthe effort. In so doing, it continues
to be my hope our stakeholders will find value in our independent, skilled and objective analysis.
The reason I express hope, rather than confidence, is grounded in past experience. Too often
agency officials were unwilling or unable to accept our findings, which time has defined to have
been accurate. Too often warnings contained in my testimony to Congress, briefings to
stakeholders, and reports upon which my statements were based went unheeded.

ERA was viewed from inception as critical to NARA, and by extension to the American public,
now andfor generations to come. Former Archivist Carlin defined ERA as our "strategic
response to preserving, managing, and providing access to electronic records .... ERA will make
Government records available to anyone, at any time, and in any place for as long as needed. "
Currently that appears not to be the case with ERA. As there is no viable substitute or back-up
system to ERA, it is essential that we as an agency work to get it right. It is critical to our
mission and by extension to the American public that we do so. I know current Archivist ofthe
United States David. S. Ferriero is actively addressing the challenge, and I lookforward to
working with him in this regard.

As is my custom, I would like to take this opportunity to thank my stafffor the exemplary work
they accomplish. Criticism and derision ofFederal workers has become afrequent theme played
out in the media and in venues large and small across the land. In an environment ofcollective
criticism where a wide net is cast out, individuals are wrongfully ensnared. My staffis highly
educated, talented, driven and productive in accomplishing the work entrusted to them. The
American public should be proud ofthem in their ongoing efforts to help NARA achieve its
strategic mission.


                                              ~ /34 -;;Lc
                                             ~//     Paul Brachfeld
                                                     Inspector General




SEMIANNUAL REPORT TO CONGRESS
April 1, 2011 to September 30, 2011                                                  Page   j
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2


Introduction ...................................................................................................................................7


Activities .........................................................................................................................................9


Audits ...........................................................................................................................................12


Investigations................................................................................................................................17


Top Ten Management Challenges .............................................................................................23


Reporting Requirements ............................................................................................................28





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1

April 1, 2011 to September 30, 2011

EXECUTIVE SUMMARY

This is the 46th Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                      Audits and Reports
The Audit Division continued to examine the security of NARA’s Information Technology (IT)
systems, the development of NARA’s Electronic Records Archives (ERA) system, and assess
the economy and efficiency of NARA’s programs and operations. During the reporting period,
we issued the following audit reports and management letters.

Information Technology (IT)

    •	 Trusted Internet Connection (TIC) Initiative. NARA had not adequately planned and
       prepared to meet the goals of the Office of Management and Budget (OMB)
       government-wide TIC initiative. More than three years after OMB announced this
       initiative; NARA had not complied with requirements set by OMB, the General Services
       Administration (GSA), and the Department of Homeland Security (DHS). For example,
       a comprehensive Plan of Action and Milestones (POA&M) had not been developed to
       reduce and consolidate NARA’s external connections, and implement crucial TIC
       capabilities. Further, NARA had not developed contract requirements needed to
       implement TIC services. We made six recommendations. While management indicated
       they were in agreement with five of the six recommendations, no formal management
       comments had been provided to the OIG by the deadline for issuance of the final report.
       (OIG Report #11-17, dated September 30, 2011. See page 13.)

    •	 Vulnerable Outdated Software. NARA is broadly using a software program no longer
       supported by its manufacturer. As a result, vulnerabilities in this software are not being
       addressed and NARA is at an increased risk of attack from viruses, spyware, and other
       malicious software. The OIG Office of Investigations issued this report, and
       management has not responded. (Management Letter #OI 11-01, dated June 28, 2011.)

Electronic Records Archives (ERA)

    •	 Implementation Status of the ERA System Requirements. Of the 853 system
       requirements contained in the original ERA Requirements Document, 494 were either
       not satisfied at all, or will not be implemented until after the system development phase
       ends on September 30, 2011. Many of these requirements represent significant system
       components such as record descriptions, access restrictions, and redaction of assets. As
       a result, after six years of development and over $378 million spent, the ERA will only
       remotely represent the system NARA originally envisioned. This will have an adverse
       impact both upon NARA programs and operations, and upon stakeholders attempting to
       access Federal records. (Audit Report #11-16, dated July 5, 2011. See page 14.)



SEMIANNUAL REPORT TO CONGRESS                                                            Page 2
April 1, 2011 to September 30, 2011
EXECUTIVE SUMMARY

    •	 Limitations on the Ability to Ingest, Search, and Access Records in ERA.
       Limitations on search capabilities combined with constraints on secure data ingestion
       will result in a scaled back ERA failing to meet the most basic requirement of providing
       timely, effective access to public records in NARA’s holdings in a searchable manner
       over the internet. The records in Base ERA will not be content searchable. Instead an
       archivist will manually identify only select records and manually copy them into a
       different system to be searchable by the Online Public Access (OPA) intermediary.
       NARA has also implemented a process for screening for national security classified
       records which is likely to fail to effectively screen records, yet it appears to add such
       burden it will immensely delay the speed by which records are ingested. Further, NARA
       has not developed an automated process for screening records for privacy related and
       personally identifiable information (PII) before they are made publicly available. NARA
       officials have indicated an archivist may be required to personally view and screen each
       of the impossibly immense number of files ERA will receive. (Management Letter #11­
       12, dated May 4, 2011.)

    •	 Defense Contract Audit Agency (DCAA) Audits. The Defense Contract Audit
       Agency (DCAA) reviewed contractor invoices submitted for work on the ERA
       development contract. The invoice review consisted of verifying direct labor charges,
       subcontractor labor charges, other direct costs, and overhead. During the period, the
       DCAA issued one audit report detailing the results of their review, which did not contain
       any significant findings. (DCAA Audit Report Number 6271-2010N17900008.)

Programs and Operations

    •	 Potential Unwarranted Payment to a NARA Contractor. A senior NARA official
       attempted to authorize an approximately $1.5 million payment to a contractor, which did
       not appear warranted under the contract. The official's justification lacked supporting
       details and was based upon rationale we believed deviated from criteria established and
       exercised for the purpose of determining contractor payments. This senior official's
       proposed action differed from the position of other involved NARA personnel, who were
       critical of the contractor's performance. Prior to any funds being disbursed, the OIG
       advised the Archivist that we lacked documentation to serve as a basis for making this
       payment, and we did not believe it was in the best interest of the agency or the taxpayer.
       The payment was not made. (Management Letter #11-13, dated June 15, 2011.)

    •	 NARA’s Telework Program. Although NARA has had a pilot telework program in
       place since September 2001, it does not fully encompass key best practices or facilitate
       the realization of identified benefits associated with teleworking. Further, the
       implementation of NARA’s pilot telework program does not reflect key objectives of
       NARA’s Transformation initiative. These conditions are due to inadequate managerial
       and administrative support of NARA’s telework program. Also, NARA’s remote access
       capability—the Work-at-Home System (WAHS)—remains vulnerable to the threats it
       was designed to mitigate. The WAHS was not fully developed, tested, or administered
       in accordance with NARA policy and NIST security standards. We made three


SEMIANNUAL REPORT TO CONGRESS                                                            Page 3
April 1, 2011 to September 30, 2011
EXECUTIVE SUMMARY

        recommendations, comprised of 17 subparts, and management concurred with all of
        them. (OIG Report #11-20, dated September 30, 2011. See page 15.)

    •	 Subcontract Cost Submitted by a NARA Prime Contractor. Pursuant to a request
       from NARA contract officials we audited subcontract costs submitted by a NARA prime
       contractor to determine if there was sufficient supporting documentation; and whether
       the subcontract costs submitted by the prime contractor and paid by NARA were
       accurate, supported, and allowable. We questioned the entire amount of
       $3,970,827.24 of subcontract cost submitted because the costs were unsupported.
       Despite numerous requests the subcontractor failed to provide documentation
       sufficient for performing a contract review in accordance with government audit policy
       and standards. (OIG Report #11-21, dated September 20, 2011. See page 15.)

    •	 NARA’s Foreign and Premium Travel. Opportunities exist to strengthen the
       effectiveness and control over the management of travel expenses related to premium
       and foreign travel. Management controls over travel did not function as intended,
       management of non-Federal sponsored travel needs enhancement, and NARA’s
       monitoring of travel card expenditures lacked internal controls to minimize the risk of
       travel card misuse. NARA concurred with all six recommendations made in the audit.
       (OIG Report #11-14, dated July 7, 2011. See page 16.)

    •	 NARA’s Drug Testing Program. While NARA has established a Drug-Free
       Workplace Plan, the controls over the drug testing program were not adequate to ensure
       goals were met and the risks associated with illegal drug use were reduced. Specifically
       we found: (1) NARA has not randomly tested employees for illegal drug use since 2007;
       (2) NARA’s plan does not necessitate random drug testing for all positions having access
       to “truly sensitive information”; (3) managers are not adequately trained to identify and
       address illegal drug use by employees, nor are employees offered training on drug
       awareness; (4) evidence of drug testing results are not maintained; and (5) NARA’s
       Drug-Free Workplace Plan document is not current and needs to be updated.
       Management concurred with all five recommendations made in the audit. (OIG Report
       #11-15, dated July 7, 2011. See page 16.)

    •	 Continued Security Concerns at AI and AII. Management officials had failed to
        implement appropriate corrective action in response to audit recommendations they
        concurred with in the Audit of NARA’s Security Guard Contract for AI and AII (OIG
        No. 11-05). Despite contract language, NARA failed to conduct security drills testing
        the emergency response capability of the guards in different situations. The Director of
        Security, in a meeting with the Inspector General, stated there is no need to conduct
        exercises as no specific threat had been identified. We believed such indifference to the
        threats faced by the National Archives represented an unacceptable posture, and the
        failure to implement corrective measures such as periodic scenario exercises put NARA
        at significant risk. (Management Letter #11-18, dated August 2, 2011.)
        UPDATE: NARA has since implemented a scenario testing program and addressed the
        security concerns noted.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 4
April 1, 2011 to September 30, 2011
EXECUTIVE SUMMARY

                                      Investigations

During this reporting period, the Office of Investigations (OI) opened six investigations and
closed 14 investigations. The OI also received 71 complaints and closed 77 complaints, seven
of which are closed pending an administrative response from NARA. Six NARA holdings were
recovered during the period. The OI worked with the FBI, Treasury Inspector General for Tax
Administration, as well as the Offices of Inspectors General at the Veterans Administration, the
Federal Communications Commission and the Government Printing Office. At the close of the
period, there remained 56 open complaints and 21 open investigations.

The OI completed investigations in a variety of areas including the following:

    •   Destruction of Federal Records
    •   Alienated Historical Holdings
    •   Mishandling of Classified Material
    •   Procurement Fraud
    •   Theft of Government Property
    •   Counterfeit Currency
    •   Unauthorized disclosure of sensitive material
    •   Unauthorized access to NARA computer equipment
    •   Grant fraud
    •   Misconduct by Management
    •   Improper Use of Government Computers
    •   Improper Government Credit Card Use
    •   Threats to employees

The Office of Investigations is presently staffed with six 1811 series Special Agents, an
Investigative Archivist, a Computer Forensic Examiner, and an Assistant Inspector General for
Investigations. This team provides investigative coverage to an approximately 3,000-person,
44-facility, nationwide agency which includes the Presidential library system. The OI conducts
both responsive and proactive investigations in order to support our statutory mission. At
present our law-enforcement authority is through special deputation from the U.S. Marshals
Service. Our application to the Attorney General for statutory law enforcement authority is
under review at the Department of Justice. We are based in NARA’s College Park, Maryland
facility and staff a satellite office in NARA’s Washington, D.C. facility.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 5
April 1, 2011 to September 30, 2011
EXECUTIVE SUMMARY

                    Management Assistance and Other Work

•	 Negotiated the return to NARA of federal grand jury records inappropriately donated to a
   private institution.

•	 Reviewed NARA’s Security Management Division’s reports of several incidents involving
   infractions or violations concerning national security classified information to ensure the
   thoroughness of inquiries, and dissemination of their recommendations.

•	 Members of the Office of Investigations, and particularly, the Archival Recovery Team,
   meet routinely with staff from NARA’s Holdings Protection Program in an effort to marshal
   our collective resources to discover new avenues and approaches to providing adequate
   security and control of our nation’s historical records.

•	 Assisted the Office of Government Ethics in their review of NARA’s ethics program.

•	 Responded to multiple requests for OIG records under the Freedom of Information Act.

•	 Presented information to NARA detailing inappropriate contractor activities for NARA’s
   determination of whether to suspend or debar the contractor.

•	 Reviewed legislative proposals and provided feedback to appropriate entities and reviewed
   newly passed legislation for its affect on NARA and the NARA OIG.

•	 Provided comment and input into several NARA directives and regulations covering a
   variety of topics such as exit inspections and declassification procedures.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 6
April 1, 2011 to September 30, 2011
INTRODUCTION

        About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 4.2 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains nearly 600,000 artifact
items and more than 156 terabytes of electronic records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2011, NARA had 40
million online visits in addition to hosting four million traditional museum visitors, all while
responding to 1.3 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2011, NARA was appropriated an annual budget of approximately $434
million and 3,380 (estimated) Full-time Equivalents (FTEs), including appropriations of $339
million for operations, $72 million for the Electronic Records Archives (ERA) program, $11.8
million for repairs and restorations of facilities, and $6.98 million for grants. NARA operates 44
facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 7
April 1, 2011 to September 30, 2011
INTRODUCTION

                  About the Office of Inspector General (OIG)

The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items belonging in our
holdings, while safely providing the American people with the opportunity to discover, use and
learn from this documentary heritage. We accomplish this by providing high-quality, objective
audits and investigations; and serving as an independent, internal advocate for economy,
efficiency, and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations;

•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies;

•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2010, a separate appropriation was established for the OIG in compliance with the
Inspector General Reform Act of 2008. Previously funds for the OIG came from NARA’s
Operating Expenses appropriation. For FY 2011, Congress provided $4.1 million for the OIG,
including resources for 23 FTEs. At the beginning of the period, the OIG had one audit vacancy
to fill. During the period, the Assistant Inspector General for Investigations left the agency to
take a position at the Department of Defense. However, this position was filled during the
period. Currently the OIG has one Inspector General, one support staff, 10 FTEs devoted to
audits, nine FTEs devoted to investigations, and a counsel to the Inspector General.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 8
April 1, 2011 to September 30, 2011
ACTIVITIES

              Involvement in the Inspector General Community

Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Legislation Committee
The IG served as a member of the CIGIE Legislation Committee. The mission of the Legislation
Committee is to provide regular and ongoing communication regarding legislative issues and
other matters of common interest between the Congress and CIGIE. Specifically, the Committee
is dedicated to providing helpful and timely information about Federal Congressional initiatives
to the IG community; soliciting the views and concerns of the community in response to
legislative initiatives and Congressional requests; and presenting views and recommendations to
Congressional committees and staff, the Government Accountability Office, and the Office of
Management and Budget (OMB) on issues and legislation that broadly affect the IG community.

CIGIE Information Technology (IT) Committee
The IG served as a member of the CIGIE IT Committee. The IT Committee facilitates effective
IT audits, evaluations, and investigations by Inspectors General. The IT Committee also
provides a vehicle for the expression of the IG community's perspective on Government-wide IT
operations.

CIGIE Investigations Committee
The IG served as a member of the CIGIE Investigations Committee. The mission of the
Investigations Committee is to advise the IG community on issues involving investigative
functions, establishing investigative guidelines, and promoting best practices.

Assistant Inspectors General for Investigations (AIGI) Committee
The previous AIGI served as vice-chair to the AIGI Committee, which serves as a standing
subcommittee to the CIGIE Investigations Committee. The AIGI Committee provides guidance,
assistance and support to the CIGIE Investigations Committee in the performance of its duties.
In addition, the AIGI Committee serves as a conduit for suggestions, issues and concerns that
affect the OIG investigations community to the CIGIE Investigations Committee for appropriate
action. The current AIGI represents the NARA OIG on the committee.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG, and communicated regularly
with fellow members. The CCIG provides a rich environment where legal issues can be raised
and interpretations can be presented and reviewed with an experienced network of OIG lawyers.
During regular meetings multiple topics were discussed and addressed.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 9
April 1, 2011 to September 30, 2011
ACTIVITIES

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.

                                      Peer Review Information

Peer Review of NARA OIG’s Audit Organization
In accordance with Government Auditing Standards and CIGIE guidelines, the NARA OIG
system of quality control for the audit organization in effect for the year ended September 30,
2010 was reviewed by the Federal Communications Commission (FCC) OIG.

FCC OIG concluded “the system of quality control for the audit organization of NARA OIG in
effect for the year ended September 30, 2010 has been suitably designed and complied with to
provide NARA OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Federal audit organizations can receive
a rating of pass; pass with deficiencies, or fail. NARA OIG has received a peer review rating of
pass.” There are no outstanding recommendations from this review.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 10
April 1, 2011 to September 30, 2011
ACTIVITIES

                           Response to Congressional Items


Request for Information on Non-Public Cases
In accordance with a written request, we provided Senator Charles Grassley and Senator Tom
Coburn with a biannual report on all closed investigations, evaluations, and audits that were
not disclosed to the public.

Information on Open Audit Recommendations

Chairman Darrell Issa of the House Oversight and Government Reform Committee requested,
and was provided with, information on various open and/or unimplemented OIG audit
recommendations.

Briefings to Congressional Committee Staffs
During the reporting period we briefed several Congressional Committee staffs on topics such as
the reduced capacity and limitations of the Electronic Records Archives.

Inventory of Commercial Activities
We submitted to OMB our FY 2011 inventory of commercial activities performed by OIG
employees. The Federal Activities Inventory Reform Act of 1998, PL 105-270 (the FAIR Act),
requires Federal agencies to annually prepare and submit to OMB inventories of commercial
activities performed by Federal employees. OMB is then required to list the available
inventories in the Federal Register, and the agency head must transmit a copy of the inventory to
the Congress, and make it available to the public. NARA forwarded its FY 2011 inventory to
OMB and published it to the NARA website.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 11
April 1, 2011 to September 30, 2011
AUDITS

                                                  Overview

This period, we issued:

    •	 six final audit reports, and
    •	 four management letters. 1

We completed fieldwork on the following audits:

    •	 an audit of the Management of Records at the Washington National Records Center
       (WNRC) to evaluate and assess the adequacy of security controls over the management
       and handling of records;

    •	 a follow-up audit of the Process of Safeguarding and Accounting for Presidential Library
       Artifacts to evaluate NARA efforts to implement recommendations contained in OIG
       Audit Report 08-01, and determine whether actions taken provide reasonable assurance
       management controls are adequate to safeguard and account for library artifacts; and

    •	 an audit of NARA’s Public Transit Subsidy Program to determine the adequacy and
       effectiveness of internal controls over the administration of this NARA program.

We continued work on the following assignments:

    •	 a Network Assessment audit to determine whether controls are adequate, identify
       inadequacies, and make recommendations to better support NARA’s business needs and
       ensure peak efficiency;

    •	 an audit of NARA’s Classified Systems to determine whether NARA’s classified systems
       are properly managed and adequately secured; and

    •	 an audit of NARA’s Data backup Operations to determine if NARA has a systematic,
       accountable, and documented process for restoring original data after a data loss event;
       and

    •	 an audit of NARA’s Compliance with OMB’s Data Center Consolidation initiative to
       assess NARA’s progress in meeting OMB’s consolidation objectives and consolidating
       its data centers.




1 Management letters are used to address issues which need to be quickly brought to the Archivist’s or
management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                            Page 12
April 1, 2011 to September 30, 2011
AUDITS

                                      Audit Summaries

Trusted Internet Connection (TIC) Initiative

Our objective was to assess NARA’s efforts to meet the TIC initiative and determine whether
NARA had adequately prepared and planned to meet the goals of the initiative. In 2007, the
Office of Management and Budget (OMB) announced the TIC initiative to optimize individual
network services into a common solution for the Federal government. This initiative aimed to
reduce external connections and improve the Federal government’s incident response capability.

We found NARA had not adequately planned and prepared to meet the goals of OMB’s TIC
initiative. More than three years after OMB’s announcement of this initiative, NARA had not
fully completed actions to comply with requirements set by OMB, the U.S. General Services
Administration (GSA), and the Department of Homeland Security (DHS). For example, a
comprehensive Plan of Action and Milestones (POA&M) had not been developed to reduce and
consolidate NARA’s external connections and implement crucial TIC capabilities. Further,
NARA had not developed contract requirements to determine the appropriate Contract Line Item
Numbers (CLINs) needed to implement TIC services. Instead, the contractor providing those
services was tasked with identifying the appropriate CLINs. Finally, a process had not been
developed to monitor the contractor’s performance of these services.

Despite reporting in 2008 that NARA was well into its migration to decrease from seven external
connections to two TIC- approved connections, NARA had only eliminated one of their external
connections by 2010 and had not yet eliminated the other four external connections to meet its
goal. Further, as of May 2011, NARA had not fully implemented the two TIC-approved
connections. Therefore, it appeared NARA had not managed this project as a priority and had
not identified any constraints or technical gaps to prevent implementation of the TIC initiative.
While a lack of transition priority was evident across the Government, progress has recently been
reported at NARA and other organizations.

As a result, NARA had not fully implemented TIC as required by OMB and missed out on
potential benefits offered by reducing its external connections and utilizing TIC-approved
connections. For example, other agencies have experienced benefits such as improved network
security and management. By reducing the number of access points, an agency can improve its
ability to monitor traffic and protect network attacks.

We made six recommendations to aid in implementing TIC at NARA and meeting OMB, GSA,
and DHS requirements. Management comments were not received prior to issuance of the final
report. (OIG Report #11-17, dated September 30, 2011.)




SEMIANNUAL REPORT TO CONGRESS                                                            Page 13
April 1, 2011 to September 30, 2011
AUDITS

Implementation Status of the Electronic Records Archive (ERA) System
Requirements

This audit was part of our on-going effort to review NARA’s development and implementation
of the ERA program which represents the largest information technology project ever undertaken
by NARA. We found that, of the 853 system requirements contained in the original ERA
Requirements Document, 494 of them will either (a) not be satisfied at all, or (b) will not be
implemented until after the system development phase ends on September 30, 2011. Many of
these requirements represent significant system components such as record descriptions, access
restrictions, and redaction of assets. As a result, after six years of development and over $378
million spent, the ERA will only remotely represent the system NARA originally envisioned.
This will have an adverse impact both upon NARA programs and operations, and upon
stakeholders attempting to access Federal records.

A system’s requirements describe the functionality needed to meet user needs and helps ensure
the system developed performs as intended in the operating environment. They should be clearly
defined and managed throughout system development in a disciplined way. The ERA
Requirements Document, an accumulation of system’s requirements, originally identified 853
requirements in 33 different functional areas.

The ERA contract states the ERA System must support NARA’s end-to-end archival processes
for appraisal and scheduling, transfer, accessioning, description, maintenance, and access to
records. However, 494, or 58 percent, of the original requirements are no longer planned to be
included in the system by the end of the development phase on September 30, 2011. The ERA
fiscal year (FY) 2010 Expenditure Plan states that, as technical challenges have been
encountered during the development of the system, there has been a tendency to reinterpret some
of the requirements stated in the original ERA Requirements Document. The Requirements
Document itself has remained the same, as has the scope of the system. A system designed and
built without clear understanding of the Requirements Document, and strict adherence to its
intent, may not meet NARA’s needs and user expectations. Further, ERA’s FY 2011
Expenditure Plan states the ERA must be built in strict conformance to both the letter and/or
intent of the Requirements Document, to ensure the level of flexibility and scalability intended
for the system.

At the end of the current system development phase on September 30, 2011, with 58 percent of
the original ERA requirements having been removed or deferred, the ERA will only remotely
represent the system that was originally envisioned. After six years of development and over
$378 million spent, NARA will get an ERA with much-reduced functionality, with less than half
of the original requirements having been achieved. Management officials have represented a
number of original requirements were no longer required based upon factors such as
technological changes that evolved since program inception, or efficiencies identified by the
contractor Lockheed Martin Corporation. While the OIG does not take issue with the
applicability of this statement to certain requirements, we note many of the more critical
requirements that have been deferred or removed do not fall within this definition or
interpretation. (Audit Report #11-16, dated July 15, 2011.)


SEMIANNUAL REPORT TO CONGRESS                                                           Page 14
April 1, 2011 to September 30, 2011
AUDITS

NARA’s Telework Program

The objective of this audit was to determine whether NARA is fully capitalizing on the identified
benefits of telework, and administering its telework program in accordance with Federal
regulation and NARA policy. We focused on whether NARA management was aligning its
telework program to meet established and recently enhanced Federal telework requirements.
Further, this audit covered the implementation of NARA’s telework program in terms of
supervisory involvement and information security.

Our review found that although NARA has had a pilot telework program in place since
September 2001, the program does not fully encompass key best practices or facilitate the
realization of identified benefits associated with teleworking. Further, the implementation of
NARA’s pilot telework program does not reflect key objectives of the agency’s Transformation
initiative. These conditions are due to inadequate managerial and administrative support of
NARA’s telework program. These same factors resulted in a lack of training, guidance, and
assistance for telework supervisors, which have negatively impacted the overall implementation
of NARA’s telework program. Although OPM has identified benefits associated with telework,
the practice invites risk and abuse if employees are not adequately trained, equipped, monitored
and subject to appropriate supervision. These risk factors clearly exist at NARA.

Further, our review found NARA’s remote access capability—the Work-at-Home System
(WAHS)—remains vulnerable to the threats it was designed to mitigate. The WAHS was not
fully developed, tested, or administered in accordance with NARA policy and NIST security
standards. Security requirements have not been met and in some cases remain untested. Now in
full production, the WAHS is unnecessarily at risk of compromise, and controls in place to
mitigate or detect such an event are insufficient. We made three recommendations, comprised of
17 subparts, to mitigate the identified risks and strengthen the security of NARA’s telework
program. Management concurred with all of the recommendations included in the report. (OIG
Report #11-20, dated September 30, 2011.)

Subcontract Costs Submitted by a Prime Contractor
Pursuant to a request by NARA contract officials, we audited subcontract costs submitted by a
NARA prime contractor to determine if (a) the prime contractor provided NARA contract
officials with sufficient supporting documentation for the subcontract costs included on its
invoices; and (b) subcontract costs submitted by the prime contractor and paid by NARA were
accurate, supported, and allowable.

The following concerns were expressed: (1) the subcontractor CEO worked an excessive number
of hours, including weekends and holidays; (2) direct labor rates continually changed without
any justification; and (3) people were added to the subcontract without NARA approval. These
concerns led to a request for the OIG to review the AP subcontracts.

As a result of our examination, we questioned the entire amount of $3,970,827.24, of subcontract
cost submitted. We reached this conclusion because the costs were unsupported, that is, the
subcontractor failed to provide documentation sufficient for performing a contract review in

SEMIANNUAL REPORT TO CONGRESS                                                            Page 15
April 1, 2011 to September 30, 2011
AUDITS

accordance with government audit policy and standards. Lacking valid, reliable records, the
FAR does not provide auditors the basis to validate any component of the charges. In fact, the
FAR stipulates that a contractor is responsible for accounting for costs appropriately and for
maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, and that costs shall be allowed to the extent they are reasonable,
allocable, and allowable. (OIG Report # 11-21, dated September 20, 2011.)

NARA’s Foreign and Premium Travel

The objective of this audit was to determine whether premium and foreign travel was
appropriately authorized and properly managed in accordance with Federal Travel Regulations
and agency policies. We found opportunities exist to strengthen the effectiveness and control
over the management of travel expenses related to premium and foreign travel. Specifically, we
found management controls over travel did not function as intended resulting in inadequate
review of travel activity, ineffective oversight of premium class and foreign travel, and
inadequate reporting of foreign travel. Further, management of non-Federal sponsored travel
needs enhancement as requesting reimbursement from non-Federal sources was not centralized,
there was no verification payment was received from non-Federal sources, and conflict-of­
interest determinations were not always obtained from the Office of General Counsel. Finally,
we found NARA’s monitoring of travel card expenditures was not robust as it lacked internal
controls to minimize the risk of travel card misuse. Specifically, we found unauthorized ATM
withdrawals and purchases on travel charge cards.

As a result of these conditions, NARA cannot ensure premium and foreign travel is appropriately
authorized and properly managed in accordance with FTR and agency policies. We made six
recommendations intended to strengthen the effectiveness and control over the management of
travel expenses. Management concurred with each of the recommendations included in the
report. (OIG Report # 11-14, dated July 7, 2011.)

NARA’s Drug Testing Program

The objective of this audit was to determine whether controls were adequate to facilitate an
effective drug testing program. Specifically our review focused on whether (1) NARA's
program was implemented as stipulated in NARA's Drug-Free Workplace Plan and (2) that the
Plan was in compliance with existing Federal regulations.

While NARA has established a Drug-Free Workplace Plan, the controls over the drug testing
program were not adequate to ensure program goals were met and risks associated with illegal
drug use were reduced. Specifically, the audit found (1) NARA has not randomly tested its
employees for the use of illegal drugs since 2007; (2) NARA’s Plan does not necessitate random
drug testing for all positions that have access to “truly sensitive information”; (3)Managers are
not adequately trained to identify and address illegal drug use by employees nor are employees
offered training on drug awareness; (4) Evidence of drug testing results are not maintained; and
(5) NARA’s Drug-Free Workplace Plan document is not current and needs to be updated. We
made five recommendations to improve the effectiveness of NARA’s drug testing program, and
management concurred with all of them. (OIG Report #11-15, dated July 7, 2011.)

SEMIANNUAL REPORT TO CONGRESS                                                            Page 16
April 1, 2011 to September 30, 2011
INVESTIGATIONS

                                  Investigations Overview

During this reporting period, the Office of Investigations (OI) opened six investigations and
closed 14 investigations. The OI also received 71 complaints and closed 77 complaints, seven of
which are closed pending an administrative response from NARA. Six NARA holdings were
recovered during the period. The OI worked with the FBI, Treasury Inspector General for Tax
Administration, as well as the Offices of Inspectors General at the Veterans Administration, the
Federal Communications Commission and the Government Printing Office. At the close of the
period, there remained 56 open complaints and 21 open investigations.

                Updates on Previously Reported Investigations
Stolen Historical Materials
A former NARA employee was alleged to have stolen multiple NARA records while employed
at the Archives. Many of these records were recovered during a search of his home. The case
was accepted for prosecution, and the former employee pleaded guilty to embezzling
government property in connection with an eight-year scheme to sell items he stole from the
National Archives. He is scheduled for sentencing.

False Claims
A NARA contractor submitted claims for hours worked by unqualified personnel in violation of
the terms of its contract. The Department of Justice declined the case for criminal prosecution
but accepted it for civil action. The civil division of the U.S. Attorney’s Office negotiated an
agreement with the contractor to pay NARA $30,000 for damages.

Mishandling of Classified Materials
Continuing security violations at the Washington National Records Center (WNRC) prompted
the OIG to initiate an investigation in the interest of National Security. Pursuant to the
completion of an inventory at NARA’s Suitland facility of Top Secret (TS) and Restricted Data
(RD) materials, 80 boxes of TS/RD material remain missing. This investigation was closed
subject to continuing updates regarding the recovery of remaining material. NARA stated they
have been working diligently since 2006 to correct issues associated with decades of records
transfers in and out of the WNRC which lacked documentation needed for adequate
identification and control of classified National Security Information. An OIG audit is now
being conducted at this facility. During the audit, alleged threats were made to OIG audit staff
and several security incidents have been reported.

False Billing
A company was initially investigated for allegations of a bid-rigging scheme to steer government
contracts to the company and its alleged co-conspirators. That charge was not substantiated, and
prosecution was declined. However, a civil case remains pending for an outstanding debt of
more than $250,000 for which NARA is demanding repayment.

Alienated Historical Document
A hand-written endorsement by President Lincoln, affixed on a letter, was offered for sale by an
autograph dealer. The document included markings indicating it was a federal record. The

SEMIANNUAL REPORT TO CONGRESS                                                             Page 17
April 1, 2011 to September 30, 2011
INVESTIGATIONS

markings were consistent with a NARA record group and the OIG’s Archival Recovery Team
worked with NARA’s Office of General Counsel to recover the document.

Grand Jury Secrecy and Record Recovery
Potential grand jury and other federal records were inappropriately donated to an institution
outside of the federal government more than 30 years ago. These records were brought to
NARA’s attention by a researcher doing work on the particular subject matter at the outside
institution. The case was referred to the Department of Justice due to the potential exposure of
grand jury information. The material is now at NARA and being reviewed by NARA archivists.

Wrongful Access to IRS Records in Transit
A previous investigation caused NARA to implement tighter security on shipments of IRS
materials by using a more sophisticated lock for the containers transporting these materials and
attaching a seal. However, another incident occurred and will be referred to management for
consideration for additional security measures.

External Access of Child Pornography
A NARA employee was alleged to be accessing child pornography from his home computer by
an external law enforcement entity. An examination of the employee’s NARA computer found
no indication that child pornography was accessed from the workplace. The case has been
accepted for prosecution.

                              New Investigation Highlights
Theft of Historical Materials
Two individuals were indicted by a federal grand jury and arrested for conspiring to steal
historical documents from museums in Maryland and New York, and selling them for profit.
Search warrants were executed to recover historical documents and other evidence. The two
individuals allegedly conspired to fraudulently obtain valuable documents and manuscripts from
museums and other repositories, and then sell the documents for their financial gain. This case
has been accepted for prosecution and is being worked with the FBI and the U.S. Attorney’s
Office.

Copyright Infringement
A case was accepted for prosecution by the U.S Attorney’s Office, Greenbelt, MD, for criminal
copyright infringement.

Recovered Documents
A private citizen returned missing naturalization documents to a National Archives research
facility. The citizen was reviewing family documentation at the National Archives and
recognized he may have possession of the documents missing from the National Archives’ files.
The citizen voluntarily returned the documents. It is unknown how his family members, who are
now deceased, obtained the documents.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 18
April 1, 2011 to September 30, 2011
INVESTIGATIONS

Mishandling of Military Records
Records at a National Archives Records Center were allegedly not being filed but were instead
being abandoned at inappropriate areas in the building. The OI substantiated this allegation and
the employee voluntarily resigned in lieu of termination.

Unauthorized Access to Sensitive Materials
An employee at a NARA Records Center inappropriately accessed sensitive and privileged
Internal Revenue Service records. This case was declined for criminal prosecution, and will be
referred for appropriate administrative action.

Mishandling of Records
A private individual was hired to appraise records belonging to an elected official. He conducted
research at one of NARA’s Records Centers and retrieved a collection of the elected official’s
records for off-site review. Records Center staff provided the individual with incorrect records
during his time in the research room, and allowed him to leave the premises with more boxes
than he was authorized to retrieve. Some of these records belonged to a different elected official.
Due to poor communication and a series of data entry errors, NARA also erroneously billed the
individual. Recommendations and corrective actions were documented, the billing was
corrected, and five employees received verbal reprimands. Written procedures for the
unclassified research room were also issued.

Contract Mismanagement
A NARA employee at a Presidential Library was circumventing a contract, for which they had
oversight, for personal preferences. The employee was counseled and required to attend training.

Improper Use of Contract Information
A contractor who had authorized access to a parking control database misused that access for
personal gain. The contractor was removed from the contract and his NARA access was revoked.

Improper Access to NARA Holdings
A contractor employee granted himself access to a temporary NARA facility, including access to
NARA holdings. The contractor employee was stopped from gaining access to the records by a
NARA employee. The contractor reprimanded the employee, giving him 60 days probation for
his actions. The contractor also took corrective action to tighten controls over access to NARA
records located at their facility.

Hostile Work Environment
A NARA employee had a history of creating a hostile work environment, to include making
threats to management. The employee resigned before administrative action was taken.

Misuse of NARA Seal
A private company was using NARA's seal on their company website. Upon further review, the
company appeared to be using the Great Seal of the United States. The OI prompted NARA’s
General Counsel to send a cease-and-desist letter to the company, who removed the seal.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 19
April 1, 2011 to September 30, 2011
INVESTIGATIONS

Counterfeit Currency
Counterfeit currency was used to purchase goods at a NARA facility. The investigation was
inconclusive as to who passed this currency. This was referred to US Secret Service.

Government Travel Card Abuse
Three NARA employees were taking improper cash advances on their government travel card.
These were determined to be administrative violations and were referred to NARA for
appropriate action.

Alienated Historical Material
A document for sale by a private citizen was determined to be alienated from NARA’s holdings.
The owner has not relinquished custody of this material. It has been referred to the Department
of Justice for civil recovery.

                        Other Office of Investigation Activity
Archival Recovery Team
During this period, the Archival Recovery Team (ART) fielded 22 complaints and opened three
investigations. Twenty complaints and five investigations were closed. At the close of the
period, 33 ART complaints and five ART investigations remained open. During the period six
NARA holdings were recovered.

    •	 Management Assistance on President Lincoln Records Recovery
       ART assisted NARA in recovering historical documents concerning the appointment of a
       chaplain to a hospital after the Battle of Antietam, endorsed by President Lincoln and
       dated November 12, 1862. The documents were removed at some unknown time in the
       past from Civil War-era records, possibly prior to the creation of the National Archives.
       A New York dealer had purchased the documents from a dealer in Connecticut, who had
       received them on consignment from a family in Rhode Island. Upon learning of the
       rightful provenance of the documents, the original consigners agreed to the return of the
       documents to NARA.

    •	 Social Media: The ART facebook page continues to grow, adding an additional 150
       “friends” for a total of over 1,600. The site updates the public about upcoming shows
       and happenings with the ART, along with other newsworthy items about document thefts,
       investigations, and recoveries at NARA and other institutions worldwide. Visit the site at
       http://www.facebook.com/archivalrecoveryteam.

    •	 Other Media: The work of ART appeared in a variety of publications around the
       country. Additionally, the Inspector General and the Supervisor of ART presented a
       session on “What Are My Records Doing on eBay?” at the National Association of
       Government Archives and Records Administrator and the Council of State Archivists in
       Nashville, TN. They also presented a session on “Recovering America’s Lost and Stolen
       National Treasures” at the International Foundation for Cultural Property Protection
       conference in Denver, CO.


SEMIANNUAL REPORT TO CONGRESS                                                            Page 20
April 1, 2011 to September 30, 2011
INVESTIGATIONS

    •	 Outreach: As part of the ART’s outreach program working with individuals and groups
       who may have interactions with historic records, Office of Investigations staffed displays
       at the following shows to educate the public about the NARA OIG and ART.

               The Civil War Show, Fredericksburg, Virginia
               The Civil War Symposium, Atlanta, Georgia
               The Annual Ohio Civil War Collectors Show, Mansfield, Ohio
               The Civil War Show, Gettysburg, Pennsylvania
               The Central Virginia Civil War Collectors’ Show, Richmond, Virginia
               The Military Antiques Xtravaganza (MAX) Show, Pittsburgh, Pennsylvania

Computer Crimes Unit
During the reporting period, the Computer Crimes Unit (CCU) provided digital forensic support
to several criminal investigations, including:

    •	 The CCU participated in the execution of a search warrant, seizing a variety of digital
       media including floppy drives, ZIP drives, optical media, and Secure Digital (SD) cards.
       The CCU also obtained digital evidence seized during an earlier search warrant of the
       same location. Ultimately, approximately 300 gigabytes of digital evidence was obtained
       and processed in support of this investigation. The examination of this matter is ongoing.

    •	 The CCU obtained, processed, and examined over two terabytes (TB) of digital evidence
       from two computer workstations, GroupWise email accounts, and network shares in
       support of an ongoing internal investigation.

    •	 The CCU supported investigations by the Government Printing Office (GPO) OIG and
       the Federal Communications Commission (FCC) OIG. In the GPO OIG case, the CCU
       copied subpoena response material related to a procurement fraud case in a forensically
       sound manner. In the FCC OIG case, the CCU obtained, processed, and examined
       approximately 200 gigabytes of digital evidence from two laptop computers.

In addition to providing forensic support to investigations, the CCU also visited the Financial
Crime Enforcement Network (FinCEN) operated by the Department of the Treasury on several
occasions to run database searches related to criminal investigations. The CCU also continued
reviewing NARA firewall log data as part of a proactive investigation to determine if employees
are using the NARA network to obtain and/or distribute child pornography.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 21
April 1, 2011 to September 30, 2011
INVESTIGATIONS

                                         OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

    •   By telephone
        Washington, DC, Metro area: (301) 837-3500 

        Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

    •   By mail
        NARA OIG Hotline
        P.O. Box 1821

        Hyattsville, MD 20788-0821 

    •   By e-mail
        oig.hotline@nara.gov
    •   By Fax
        (301) 837-0879
    •   By online referral form
        http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition. Where
appropriate, referrals are made to OIG audit staff, NARA management, or external authorities.
Substantive Hotline contacts are captured as complaints in the Office of Investigations.

                         OIG Hotline Activity for the Reporting Period
                     Complaints received                                      71
                     Complaints closed pending response from NARA              7
                     Complaints closed final                                  70
                     Complaints open to Investigations                         5


                          Contractor Self Reporting Hotline
As required by the Federal Acquisition Regulation, a web-based form allows NARA contractors
to notify the OIG, in writing, whenever the contractor has credible evidence a principal,
employee, agent, or subcontractor of the contractor has committed a violation of the civil False
Claims Act or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or
gratuity violations in connection with the award, performance, or closeout of a contract or any
related subcontract. The form can be accessed through the OIG’s home page, for found directly
at: http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                               Page 22
April 1, 2011 to September 30, 2011
TOP TEN MANAGEMENT CHALLENGES

                                          Overview

Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

One area not identified below is the impact of the major NARA transformation instituted under
the direction of Archivist of the United States David S. Ferriero. The organizational structure the
Archivist inherited when he came to NARA two short years ago has been radically re-
engineered, and the majority of senior staff who held positions of authority under the former
Archivist have left the agency. The process of transforming NARA to meet our core mission in
this digital age is essential, but organizational transformations by their very nature may
precipitate unforeseen challenges to staff and management alike.

1.      Electronic Records Archives
NARA initiated the Electronic Records Archive (ERA) Program in order to address the
challenge of ingesting, preserving and providing access to our nation's electronic records for as
long as needed. However, virtually since inception the program has been fraught with delays,
costs overruns, and technical short comings and deficiencies. Elements of these problems were
identified by NARA's Office of Inspector General and the Government Accountability Office
(GAO). In August 2010, OMB placed the ERA Program on its high-priority list of 26 high-risk
IT projects selected from across the Federal government. On September 30, 2011 the
development contract between NARA and Lockheed Martin Corporation concluded. However,
many core requirements were not fully addressed and the ERA Program lacks the originally
envisioned functionality.

The program is now transitioning to a Operations and Maintenance (O&M) phase, with IBM
receiving a 10-year, $240 million contract. The O&M tasks to be performed by IBM, under a
firm-fixed-price (FFP) arrangement, include: help desk operations, incident management,
problem management, hardware and software maintenance, asset and configuration management,
deployment management, capacity management, availability management, security services,
backup and recovery services, and ingest operations. The contract will also include replacing
and updating the technologies comprising ERA, and developing increased ERA System
functionality. These additional tasks will be performed under Technical Direction Letters
(TDLs) which may be either FFP or time-and-materials (T&M) arrangements.

The ERA Program faces many challenges going forward, including addressing increased
volumes of data to be ingested and increased number of users to be supported when ERA use
becomes mandatory for all federal agencies starting in September 2012. However, the greatest
challenge will be NARA's ability (with vendor support) to effectively meet stakeholder needs,
while operating and maintaining a system whose development failed to meet core benchmark
requirements and lacks originally envisioned capabilities.

SEMIANNUAL REPORT TO CONGRESS                                                              Page 23
April 1, 2011 to September 30, 2011
TOP TEN MANAGEMENT CHALLENGES

2.      Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby
ensuring people can discover, use, and learn from this documentary heritage. NARA provides
continuing access to the essential documentation of the rights of American citizens and the
actions of their government. The effective management of these records is key to accomplishing
this mission. NARA must work with Federal agencies to ensure the effective and efficient
appraisal, scheduling, and transfer of permanent records, in both traditional and electronic
formats. The major challenge is how best to accomplish this component of our overall mission
while reacting and adapting to a rapidly changing technological environment in which electronic
records, particularly e-mail, proliferate. In short, while the ERA system is intended to work with
electronic records received by NARA, we need to ensure the proper electronic and traditional
records are in fact preserved and sent to NARA in the first place.

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 government-
wide initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance
to agencies in managing and transferring their permanent electronic records to NARA, in an
increasing variety of data types and formats. In June 2008, GAO recommended NARA develop
and implement an approach to provide oversight of agency electronic records management
programs, to provide adequate assurance that NARA guidance is effective and the agencies are
following electronic records guidance. NARA, its Government partners, and Federal agencies are
challenged with determining how best to manage electronic records and how to make ERM and
e-Government work more effectively.

3.      Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’
Financial Integrity Act reporting process beginning in FY 2007. NARA’s Office of Information
Services (I) conducted an independent assessment of the IT security program using the Program
Review for Information Security Management Assistance (PRISMA) methodology developed by
the National Institute for Standards and Technology (NIST) in FY 2007. The assessment stated
NARA’s policy and supporting procedures for IT security were weak, incomplete, and too
dispersed to be effective. Over four years later, NARA officials continue to work to address
weaknesses identified during the assessment.

IT security continues to present major challenges for NARA, including physical security of IT
hardware, and technical vulnerabilities within our electronic systems themselves and how NARA
operates them. Annual assessments of NARA’s compliance with the Federal Information
Security Management Act have consistently identified program areas in need of significant
improvement. The confidentiality, integrity, and availability of our electronic records and
information technology systems are only as good as our IT security infrastructure. GAO issued a
report in early FY 2011 identifying significant weaknesses in access controls, and other
information security controls, impairing NARA’s ability to ensure the confidentiality, integrity,
and availability of its information systems. Each year, risks and challenges to IT security
continue to be identified. NARA must ensure the security of its data and systems or risk
undermining the agency’s credibility and ability to carry out its mission.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 24
April 1, 2011 to September 30, 2011
TOP TEN MANAGEMENT CHALLENGES

4.      Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Unfortunately, approximately half of NARA’s textual
holdings have not been processed to allow efficient and effective access to these records. To
meet its mission, NARA must work to ensure it has the processes and resources necessary to
establish intellectual control over this backlog of unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information on-line, will be to provide such access to records created digitally (i.e.,
“born digital”) and to identify those textual records most in demand so they can be digitized and
made available electronically. The ERA Program’s diminished access capabilities compound
this problem. NARA’s role in ensuring the timeliness and integrity of the declassification
process of classified material held at NARA is also vital to public access.

5.      Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure its own facilities, as well as those used by other Federal agencies, are in compliance with
these regulations; and effectively mitigate risks to records which are stored in facilities not
meeting these standards.

6.      Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow
older daily and face degradation associated with time. This affects both traditional paper records,
and the physical media that electronic records and audio/visual records are stored on. Per
management, preservation resources have not been able to adequately address the growth in
holdings needing preservation action. As a result, backlogs have grown and NARA will not
meet this year’s preservation target, and is not projected to meet its long range performance
target for FY 2016. Preserving and providing access to records is a fundamental element of
NARA’s duties to the country, and NARA cannot provide access to records unless it can
preserve them for as long as needed. The backlog of records needing preservation action
continues to grow. NARA is challenged to address this backlog and future preservation needs,
including the data integrity of electronic records. The challenge of ensuring NARA facilities
meet environmental standards for preserving records (see OIG Challenge #5) also plays a critical
role in the preservation of Federal records.

7.      Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right
equipment and systems to accomplish NARA’s mission. Complex and high-dollar contracts
require multiple program managers, often with varying types of expertise. NARA is challenged

SEMIANNUAL REPORT TO CONGRESS                                                               Page 25
April 1, 2011 to September 30, 2011
TOP TEN MANAGEMENT CHALLENGES

with planning projects, developing adequately defined requirements, analyzing and testing to
support acquisition and deployment of the systems, and providing oversight to ensure effective
or efficient results within costs. Currently, IT systems are not always developed in accordance
with established NARA guidelines. These projects must be better managed and tracked to ensure
cost, schedule, and performance goals are met.

As an example, GAO reported NARA did not document the results of briefings to its senior
management oversight group during the development of NARA’s largest IT project, the ERA
Program. There is little evidence the group identified or took appropriate corrective actions, or
ensured such actions were taken and tracked to closure. Without adequate oversight evaluating
project progress, including documenting feedback and action items from senior management,
NARA will not be able to ensure projects are implemented at acceptable cost and within
reasonable time frames. GAO also reports NARA has been inconsistent in its use of earned
value management (EVM), a project management approach providing objective reports of
project status and early warning signs of cost and schedule overruns. Inconsistent use of key
project management disciplines like EVM limits NARA’s ability to effectively manage projects
and accurately report on their progress.

8.      Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA
reporting process. Document and artifact theft is not a theoretical threat; it is a reality NARA
has been subjected to time and time again. NARA must maintain adequate levels of security to
ensure the safety and integrity of persons and holdings within our facilities. This is especially
critical in light of the security realities facing this nation and the risk our holdings may be
pilfered, defaced, or destroyed by fire or other man-made and natural disasters. Not only do
NARA’s holdings have immense historical and financial value, but we hold troves of national
security information as well. Developments such as the creation of the Holdings Protection
Team and implementation of stricter access controls are welcome additions to NARA’s
security posture and should be commended. However, NARA must continually strive to
improve in this area.

9.      Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide
initiative. The CSM initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and to improve the management and oversight of Federal contractors. NARA is also
challenged with reviewing contract methods, to ensure a variety of procurement techniques are
properly used in accordance with laws, regulations and best practices.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 26
April 1, 2011 to September 30, 2011
TOP TEN MANAGEMENT CHALLENGES

10.     Strengthening Human Capital
The GAO has identified human capital as a government-wide high risk, explaining it is critical to
ensure agencies have the talent and skill mix they need to address their current and emerging
human capital challenges. NARA's 2011 results to the Employee Viewpoint Survey (EVS) are
largely consistent with the results from previous years, where NARA did not score particularly
well. Importantly, NARA continues to lag behind the rest of the Federal government in overall
employee satisfaction.

However, NARA recognizes work is needed to improve. NARA is going through a major
reorganization. One of the first initiatives was realigning relevant functions into a Human
Capital Office reporting directly to the Archivist. The Human Capital Office's top priority will be
taking a comprehensive and integrated approach to human capital management throughout the
agency. This approach is designed to include a renewed commitment to diversity, a focus on
continuous learning, and an emphasis on addressing the needs identified in the Employee
Viewpoint Survey. The Human Capital Office will also be charged with developing systems and
programs for encouraging and rewarding leadership, service and excellence at all levels.
NARA’s challenge is to adequately address these issues to change the current situation and
effectively recruit, retain, and train the employees needed to achieve its mission.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 27
April 1, 2011 to September 30, 2011
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS

          AMENDED, AND OTHER LAWS

REQUIREMENT             SUBJECT                                             PAGE(s)

Section 4(a)(2)         Review of legislation and regulations               6, 9

Section 5(a)(1)         Significant problems, abuses, and deficiencies      2 – 4, 13 – 16,
                                                                            23 – 27

Section 5(a)(2)         Significant recommendations for corrective action   2 – 4, 13 – 16

Section 5(a)(3)         Prior significant recommendations unimplemented     32

Section 5(a)(4)         Summary of prosecutorial referrals                  30

Section 5(a)(5)         Information or assistance refused                   32

Section 5(a)(6)         List of reports issued                              31

Section 5(a)(7)         Summaries of significant reports                    2 – 4, 13 – 16

Section 5(a)(8)         Audit Reports—Questioned costs                      31

Section 5(a)(9)         Audits Reports—Funds put to better use              32

Section 5(a)(10)        Prior audit reports unresolved                      32

Section 5(a)(11)        Significant revised management decisions            32

Section 5(a)(12)        Significant revised management decisions            32
                        with which the OIG disagreed

P.L. 110-181            Annex of completed contract audit reports           31

P.L. 111-203            Reporting on OIG peer review                        10




SEMIANNUAL REPORT TO CONGRESS                                                      Page 28
April 1, 2011 to September 30, 2011
REPORTING REQUIREMENTS

STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                         71
        Investigations pending at beginning of reporting period                           29
        Investigations opened this reporting period                                       6
        Investigations closed this reporting period                                       14
        Investigations carried forward this reporting period                              21
Categories of Closed Investigations
        Fraud                                                                             1
        Conflict of Interest                                                              0
        Contracting Irregularities                                                        1
        Misconduct                                                                        3
        Larceny (theft)                                                                   5
        Other                                                                             4
Investigative Results
        Cases referred – accepted for prosecution                                         3
        Cases referred – declined for prosecution                                         2
        Cases referred – pending prosecutive decision                                     1
        Arrest                                                                            2
        Indictments and informations                                                      3
        Convictions                                                                       1
        Fines, restitutions, judgments, and other civil and administrative recoveries   $30,000
        NARA holdings recovered                                                           6
Administrative Remedies
        Employee(s) terminated                                                            1
        Employee(s) resigned in lieu of termination                                       2
        Employee(s) suspended                                                             0
        Employee(s) given letter of reprimand or warnings/counseled                       9
        Employee(s) taking a reduction in grade in lieu of administrative action          0
        Contractor (s) removed                                                            1

        Individual(s) barred from NARA facilities                                         0


SEMIANNUAL REPORT TO CONGRESS                                                             Page 29
April 1, 2011 to September 30, 2011
REPORTING REQUIREMENTS

                        SUMMARY OF PROSECUTORIAL REFERRALS
                                       Requirement 5(a)(4)
Accepted for Prosecution

Theft of Historical Materials
Two individuals were indicted by a federal grand jury and arrested for conspiring to steal
historical documents from museums in Maryland and New York, and selling them for profit.
Search warrants were executed to recover historical documents and other evidence. The two
individuals allegedly conspired to fraudulently obtain valuable documents and manuscripts from
museums and other repositories, and then sell the documents for their financial gain. This case
has been accepted for prosecution and is being worked with the FBI and the U.S. Attorney’s
Office.

Copyright Infringement
A case was accepted for prosecution by the U.S Attorney’s Office, Greenbelt, MD, for criminal
copyright infringement.

External Access of Child Pornography
A NARA employee was alleged to be accessing child pornography from his home computer by
an external law enforcement entity. An examination of the employee’s NARA computer found
no indication child pornography was accessed from the workplace. The case has been accepted
for prosecution.

Declined for Prosecution

Procurement Process Violation
Allegations were made that contract support staff may have steered a contract to a specific
vendor. This allegation was not substantiated. However, it was substantiated that the
procurement process was subverted. This matter was declined for criminal prosecution but was
reported to NARA management.

Violation of Protected Income Tax Information
A NARA employee at a records center was looking through IRS boxes designated for
destruction. The box was wrapped with IRS tape, which stated that the box was only to be
opened by IRS personnel. The employee was curious and looked through the box. This
investigation was declined for criminal prosecution but will be referred to NARA for appropriate
action.

Pending Prosecutorial Determination

Alienated Historical Material
A document for sale by a private citizen was determined to be alienated from NARA’s holdings.
The owner has not relinquished custody of this material. It has been referred to the Department
of Justice for civil recovery.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 30
April 1, 2011 to September 30, 2011
        REPORTING REQUIREMENTS

                                         LIST OF REPORTS ISSUED
                                              Requirement 5(a)(6)
Report      Title                                  Date         Questioned        Unsupported    Funds Put to
No.                                                             Costs             Costs          Better Use
11-14       Audit of NARA’s Foreign and
                                                   07/07/2011         0                0                  0
            Premium Travel
11-15       Audit of NARA’s Drug Testing
                                                   07/07/2011         0                0                  0
            Program
11-16       Implementation Status of the
            Electronic Records Archives System     07/15/2011         0                0                  0
            Requirements
11-17       Audit of the Trusted Internet
                                                   09/30/2011         0                0                  0
            Connections Initiative at NARA
11-20       Audit of NARA’s Telework Program       09/30/2011         0                0                  0
11-21       Review of a NARA Prime
                                                    9/30/2011   3,970,827.24           0                  0
            Contractor’s Subcontract Costs

                            AUDIT REPORTS WITH QUESTIONED COSTS
                                              Requirement 5(a)(8)

                                                    Number of                DOLLAR VALUE
        Category                                                          Questioned       Unsupported
                                                     Reports
                                                                            Costs             Costs

        A. For which no management decision
                                                          1                $27,159              $27,159
           has been made by the commencement
           of the reporting period
        B. Which were issued during the
                                                          0               $3,970,827        $3,970,827
           reporting period
           Subtotals (A + B)                              1               $3,997,986        $3,997,986
        C. For which a management decision has
                                                          0                $27,159              $27,159
           been made during the reporting period
           (i) dollar value of disallowed cost            0                  $0                   $0
           (ii) dollar value of costs not
                                                          0                $27,159              $27,159
           disallowed
        D. For which no management decision
           has been made by the end of the                1               $3,970,827        $3,970,827
           reporting period
        E. For which no management decision
                                                          1                  $0                   $0
           was made within 6 months

                    ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
        Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
        information on completed contract audit reports containing significant audit findings be included
        as an annex to this report. While the OIG audited the ERA and other contracts during this
        period, they were generally program audits as opposed to contract audits, and the DCAA audits
        of the ERA program this period do not rise to the level of Section 845 requirements.

        SEMIANNUAL REPORT TO CONGRESS                                                              Page 31
        April 1, 2011 to September 30, 2011
REPORTING REQUIREMENTS

              AUDIT REPORTS WITH RECOMMENDATIONS THAT

                      FUNDS BE PUT TO BETTER USE

                                        Requirement 5(a)(9)



              CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                         0                       $434,589
   the reporting period
B. Which were issued during the reporting
                                                            1                            $0
   period
   Subtotals (A + B)                                        1                       $434,589
C. For which a management decision has
                                                            0                            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                            0                            $0
        that were agreed to by management
        Based on proposed management
                                                            0                            $0
        action
        Based on proposed legislative
                                                            0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                          0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting                    1                       $434,589
   period
E. For which no management decision was
   made within 6 months of issuance                         1                       $434,589




                               OTHER REQUIRED REPORTS


REQUIREMENT                                  CATEGORY                               SUMMARY
5(a)(3)                    Prior significant recommendations unimplemented        None
5(a)(5)                    Information or assistance refused                      None
5(a)(10)                   Prior audit reports unresolved                         None
5(a)(11)                   Significant revised management decisions               None
5(a)(12)                   Significant revised management decisions with which    None
                           the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                  Page 32
April 1, 2011 to September 30, 2011
